Audit Report




OIG-07-005
FINANCIAL MANAGEMENT:
Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the
Year Ended September 30, 2006
November 4, 2006




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 4, 2006


            MEMORANDUM FOR VAN ZECK, COMMISSIONER
                           BUREAU OF THE PUBLIC DEBT

            FROM:                   Michael Fitzgerald
                                    Acting Deputy Assistant Inspector General
                                     for Financial Management and Information
                                     Technology Audits

            SUBJECT:                Report on the Bureau of the Public Debt
                                    Trust Fund Management Branch Schedules for
                                    Selected Trust Funds as of and for the
                                    Year Ended September 30, 2006


            I am pleased to transmit the attached Report on the Bureau of the Public Debt Trust
            Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the related
            Schedule of Activity of Selected Trust Funds as of and for the year ended
            September 30, 2006 (the Schedules). We contracted with the independent certified
            public accounting firm KPMG LLP to examine TFMB’s assertions pertaining to the
            Schedules as of and for the year ended September 30, 2006. These Schedules
            relate solely to the functions performed by TFMB as custodian of the following Trust
            Funds’ monies and investments:

                    •   Federal Supplementary Medical Insurance Trust Fund,
                    •   Federal Hospital Insurance Trust Fund,
                    •   Highway Trust Fund,
                    •   Airport and Airway Trust Fund,
                    •   Hazardous Substance Superfund Trust Fund,
                    •   Leaking Underground Storage Tank Trust Fund,
                    •   Oil Spill Liability Trust Fund,
                    •   Harbor Maintenance Trust Fund,
                    •   Inland Waterways Trust Fund, and
                    •   South Dakota Terrestrial Wildlife Habitat Restoration
                        Trust Fund
Page 2


The contract required that the examination be performed in accordance with
generally accepted government auditing standards and the attestation standards
established by the American Institute of Certified Public Accountants.

In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found TFMB’s assertions (which are included in the Independent Auditors’ Report on
Management’s Assertions) pertaining to the Schedules are fairly stated, in all
material respects, based on the measurement and disclosure criteria set forth in
note 1 to the Schedules.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from
an examination of assertions in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the attached
auditors’ report dated November 3, 2006 and the conclusions expressed in the
report. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789.

Attachment

cc:   Donald V. Hammond
      Fiscal Assistant Secretary
            U. S. DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

            Schedules and Notes for Selected Trust Funds

           As of and for the Year Ended September 30, 2006
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH


                                              Table of Contents



                                                                      Page

I     Independent Auditors’ Report on Management’s Assertions           1

II    Schedule of Assets and Liabilities of Selected Trust Funds        4

III   Schedule of Activity of Selected Trust Funds                      7

IV    Notes to the Schedules of Selected Trust Funds                   10
I.   INDEPENDENT AUDITORS’ REPORT ON
        MANAGEMENT’S ASSERTIONS
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                     Independent Auditors’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Public Debt:

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the Bureau
of the Public Debt (BPD) of the U.S. Department of the Treasury (Treasury) with respect to the applicable
accounts of each trust fund included on the accompanying Schedule of Assets and Liabilities of Selected
Trust Funds as of September 30, 2006 and the related Schedule of Activity of Selected Trust Funds for the
year then ended:

•   Fund balance with Treasury is reported based on the balance reported by Treasury’s Financial
    Management Service (FMS) in the Government-wide Accounting and Reporting Modernization Project
    (GWA) Account Statement and reconciling transactions identified and recorded by TFMB.

•   Interest receivables are calculated and reported by TFMB based on the investment terms received and
    recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment confirmations and
    monthly statements of account.

•   Other receivables are reported based on amounts received and recorded by TFMB from the program
    agencies responsible for the respective trust fund activity.

•   Investments (net) are calculated and reported at net cost based on the cost and premium/discount
    amounts reported to TFMB in the investment confirmations and monthly statements of account
    received from FIB.

•   The market value of investments is calculated and reported by TFMB using the recorded investment
    cost and the market rates published in the September 29, 2006 Treasury Quote file and unrealized gains
    and losses are calculated and reported by TFMB as the difference between the market value and the
    investments (net).

•   Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.

•   Available program agency equity is reported based on amounts received and recorded by TFMB from
    the program agencies responsible for the respective trust fund activity.

•   Other program agency equity is calculated and reported by TFMB as the difference between the assets
    of the trust fund and the available program agency equity received and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.



                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
    monthly statements of account and accrued interest and amortization calculated by TFMB.
    Amortization of any premiums and discounts on investments is calculated and reported by TFMB
    based on the investment terms reported to TFMB by FIB using the straight-line method for investments
    with a term equal to or less than one year and using the level yield method which approximates the
    interest method for investments with a term of greater than one year.

•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
    and other income are reported based on the amounts received and recorded by TFMB from FMS and
    the program agencies responsible for the respective trust fund activity.

•   Tax revenues, adjustments, and refunds are reported based on the amounts received and recorded by
    TFMB from FMS.

•   Transfers to program agencies are calculated and reported based on the disbursement request amounts
    received and recorded by TFMB from the program agencies responsible for the respective trust fund
    activity and the disbursement amounts returned and recorded by TFMB from the program agencies
    responsible for the respective trust fund activity.

•   Reimbursements to Treasury bureaus and the General Fund are reported based on the disbursement
    request amounts received and recorded by TFMB from various Treasury bureaus, including BPD and
    FMS.

These assertions are the responsibility of TFMB’s management. Our responsibility is to express an opinion
on these assertions based on our examination. Our examination was conducted in accordance with
attestation standards established by the American Institute of Certified Public Accountants (AICPA) and
the standards applicable to attestation engagements contained in Government Auditing Standards issued by
the Comptroller General of the United States and, accordingly, included examining on a test basis,
evidence supporting the assertions stated above and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis for our
opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust fund
reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2006, and the related Schedule of Activity of Selected Trust Funds for the year then ended,
are fairly stated, in all material respects based on the measurement and disclosure criteria set forth in note 1
to the schedules of selected trust funds.

This report is intended solely for the information and use of the management of BPD, program agencies
responsible for their respective trust fund activity, the U.S. Department of the Treasury Office of Inspector
General, the Office of Management and Budget, the Government Accountability Office, and the U. S.
Congress, and is not intended to be and should not be used by anyone other than these specified parties.




November 3, 2006




                                                       2
II. SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                             U.S. DEPARTMENT OF THE TREASURY
                                 BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                          Schedule of Assets and Liabilities of Selected Trust Funds
                                                          As of September 30, 2006


                                          Federal
                                       Supplementary            Federal                                                Hazardous
                                          Medical               Hospital                                 Airport       Substance
                                         Insurance             Insurance                Highway        and Airway      Superfund
Assets:                                 Trust Fund            Trust Fund               Trust Fund      Trust Fund      Trust Fund
  Fund balance with Treasury       $       82,265,771             8,799,443            2,390,356,878    645,458,199         756,144
  Interest receivables                    384,393,174         3,914,082,914                              74,226,613       7,984,249
  Other receivables                                             473,000,000
  Investments (net)                    33,060,991,000       302,186,266,000           10,997,655,000   7,893,312,000   2,619,536,364
             Total assets          $   33,527,649,945       306,582,148,357           13,388,011,878   8,612,996,812   2,628,276,757
Liabilities:
  Program agency equity:
     Available                     $   22,497,353,231        20,472,326,656           13,388,011,878   2,214,185,490   2,446,467,020
     Other                             11,030,296,714       286,109,821,701                            6,398,811,322     181,809,737
             Total liabilities     $   33,527,649,945       306,582,148,357           13,388,011,878   8,612,996,812   2,628,276,757




                                                                      4                                                    (Continued)
                                              U.S. DEPARTMENT OF THE TREASURY
                                  BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2006

                                                                                                                           South Dakota
                                             Leaking                                                                        Terrestrial
                                          Underground               Oil Spill             Harbor             Inland       Wildlife Habitat
                                          Storage Tank              Liability            Maintenance       Waterways        Restoration
Assets:                                    Trust Fund              Trust Fund            Trust Fund        Trust Fund       Trust Fund
  Fund balance with Treasury          $      11,750,413               6,478,249             87,026,869        4,276,820
  Interest receivables                       30,535,486               4,232,635             18,125,931        1,105,183          662,374
  Other receivables
  Investments (net)                        2,708,210,417           593,689,515            3,200,595,957    262,289,723        88,676,409
              Total assets            $    2,750,496,316           604,400,399            3,305,748,757    267,671,726        89,338,783
Liabilities:
  Program agency equity:
     Available                        $       88,417,483           113,270,970                              26,613,975
     Other                                 2,662,078,833           491,129,429            3,305,748,757    241,057,751        89,338,783
              Total liabilities       $    2,750,496,316           604,400,399            3,305,748,757    267,671,726        89,338,783


See accompanying notes to the schedules of selected trust funds.




                                                                           5
III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                U.S. DEPARTMENT OF THE TREASURY
                                    BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                    Schedule of Activity of Selected Trust Funds
                                                      For the Year Ended September 30, 2006


                                               Federal
                                            Supplementary             Federal                                                 Hazardous
                                               Medical                Hospital                                 Airport        Substance
                                              Insurance              Insurance               Highway         and Airway       Superfund
                                             Trust Fund              Trust Fund             Trust Fund       Trust Fund       Trust Fund
Revenues:
  Interest revenue                      $     1,600,646,543        15,541,386,191              1,138,794      483,380,986      108,806,990
  Penalties, fines, and
     administrative fees                                              460,557,524             10,960,835                          2,467,409
  Transfers in from program agencies        162,598,715,301        11,466,674,710             10,687,234                      1,189,825,474
  Tax revenues and adjustments                                    180,392,244,296         39,636,524,000    10,315,340,000        1,144,283
  Tax refunds                                                                               (883,155,320)     (113,228,000)
  Premiums                                   46,085,347,021          2,652,516,282
  Cost recoveries                                                                                                               59,661,146
  Other income                                    2,273,637                530,556            13,439,000
             Total revenues                 210,286,982,502       210,513,909,559         38,789,594,543    10,685,492,986    1,361,905,302
Disposition of revenues:
  Transfers to program agencies             194,241,997,038       185,240,110,656         36,221,170,137    12,897,794,291    1,038,033,747
  Reimbursements to Treasury bureaus
     and the General Fund                          274,314             147,127,786
             Total disposition of
               revenues                     194,242,271,352       185,387,238,442         36,221,170,137    12,897,794,291    1,038,033,747
             Net increase/(decrease)
               in program agency
               equity                   $    16,044,711,150        25,126,671,117          2,568,424,406    (2,212,301,305)    323,871,555




                                                                          7                                                         (Continued)
                                                    U.S. DEPARTMENT OF THE TREASURY
                                        BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                          Schedule of Activity of Selected Trust Funds
                                                            For the Year Ended September 30, 2006


                                                                                                                                   South Dakota
                                                        Leaking                                                                     Terrestrial
                                                     Underground             Oil Spill             Harbor           Inland        Wildlife Habitat
                                                     Storage Tank            Liability            Maintenance     Waterways         Restoration
                                                      Trust Fund            Trust Fund            Trust Fund      Trust Fund        Trust Fund
Revenues:
  Interest revenue                              $       97,666,225             25,242,560           114,433,316      9,368,993         3,233,088
  Penalties, fines, and
     administrative fees                                                        6,628,490
  Transfers in from program agencies                    15,000,000
  Tax revenues and adjustments                         199,547,000             54,212,000         1,206,500,252    80,807,000
  Tax refunds                                           (3,320,000)
  Premiums
  Cost recoveries                                                               7,336,016
  Other income                                                                                                                        10,000,000
              Total revenues                           308,893,225             93,419,066         1,320,933,568    90,175,993         13,233,088
Disposition of revenues:
  Transfers to program agencies                         85,028,001           228,760,246            798,121,161   175,106,627
  Reimbursements to Treasury bureaus
     and the General Fund                                                          70,000
              Total disposition of
                revenues                                85,028,001           228,830,246            798,121,161   175,106,627                 —
              Net increase/(decrease)
                in program agency
                equity                          $      223,865,224          (135,411,180)           522,812,407    (84,930,634)       13,233,088


See accompanying notes to the schedules of selected trust funds.




                                                                               8
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                            U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                   Notes to the Schedules of Selected Trust Funds
                                                September 30, 2006



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury Managed
            Trust Funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Public Debt (BPD) of the U.S. Department of the Treasury (Treasury). The trust funds were created
            by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from the Internal Revenue
            Service (IRS) and the Office of Tax Analysis (OTA), the program agencies responsible for their trust
            fund activity, Treasury’s Financial Management Service (FMS), and other Treasury bureaus. As part
            of its functions, BPD also manages the investments, maintains related accounting records and
            supporting documentation, and reports financial activity. The financial activity reported in these
            Schedules is limited to the activities performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are recorded using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The Trust Funds do not maintain cash in commercial bank accounts. Treasury processes cash
            receipts and disbursements. Fund Balance with Treasury represents net revenue, disposition of
            revenue, and investment activity. Fund balance with Treasury is reported based on the balance
            reported by Treasury’s Financial Management Service (FMS) in the Government-wide Accounting
            and Reporting Modernization Project (GWA) Account Statement and reconciling transactions
            identified and recorded by TFMB.

      (e)   Interest Receivables
            Interest receivables are calculated and reported by TFMB based on the investment terms received
            and recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment
            confirmations and monthly statements of account.

                                                        10                                          (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2006



(f)   Other Receivables
      Other receivables are reported based on amounts received and recorded by TFMB from the program
      agencies responsible for the respective trust fund activity.

(g)   Investments (Net)
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments (net) are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 29, 2006 Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments (net).

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2006 to the program agencies at the request of the program agencies.
      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of
      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.




                                                  11                                             (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                            Notes to the Schedules of Selected Trust Funds
                                          September 30, 2006



(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the Trust Funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from FMS and
      the program agencies responsible for the respective trust fund activity.

      Tax revenues, adjustments, and refunds are reported based on the amounts received and recorded by
      TFMB from FMS. OTA estimates the tax revenues each month based on projected tax receipts and
      provides the estimates to FMS. FMS transfers the amount of estimated taxes to the trust fund
      accounts. The IRS or program agencies generally certify the tax revenues two quarters after the taxes
      are estimated (i.e., 1st quarter estimate is certified in the 3rd quarter) and provide this certification to
      FMS. FMS calculates the tax adjustment as the difference between the taxes estimated by OTA and
      taxes certified by the IRS/program agencies and adjusts the trust fund accounts accordingly. FMS
      reports the tax adjustments to TFMB. As a result of the timing of the certification, the statement of
      activity includes certified tax revenues (i.e. actual tax revenues) for the first two quarters of the fiscal
      year and estimated tax revenues for the second two quarters of the fiscal year.

(k)   Transfers to Program Agencies
      Dispositions from the Trust Funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
      administration and related costs as defined by law. Transfers to program agencies are calculated and
      reported based on the disbursement request amounts received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity and the disbursement amounts
      returned and recorded by TFMB from the program agencies responsible for the respective trust fund
      activity.

(l)   Reimbursements to Treasury Bureaus and the General Fund
      In the case of certain trust funds, BPD and Financial Management Service (FMS) are authorized by
      law to receive direct reimbursement from the trust funds for certain administrative expenses. Also,
      the Secretary of the Treasury is directed by law to charge trust funds to reimburse the General Fund
      for administrative expenses incurred by other Treasury bureaus in performing activities related to

                                                    12                                               (Continued)
                             U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2006



            administering the trust funds. These reimbursement amounts are determined by Treasury based on its
            assessment of the value of the services provided. Reimbursements to Treasury bureaus and the
            General Fund are reported based on the disbursement request amounts received and recorded by
            TFMB from various Treasury bureaus, including BPD and FMS.

(2)   Investments (Net)
      Federal Supplementary Medical Insurance Trust Fund
      Investments at September 30, 2006, are non-marketable, par value intra governmental securities with a cost
      of $33,060,991,000.

      Federal Hospital Insurance Trust Fund
      Investments at September 30, 2006, are non-marketable, par value intra governmental securities with a cost
      of $302,186,266,000.

      Highway Trust Fund
      Investments at September 30, 2006, are non-marketable, par value intra governmental securities with a cost
      of $10,997,655,000. In accordance with Public Law 105-277, 112 Statute 2681, investments held by the
      Trust Fund ceased earning interest after September 30, 1998. However, the fund can earn interest pursuant
      to the Cash Management Improvement Act.

      Airport and Airway Trust Fund
      Investments at September 30, 2006, are non-marketable, par value intra governmental securities with a cost
      of $7,893,312,000.

      Hazardous Substance Superfund Trust Fund
      Investments at September 30, 2006, are non-marketable, market-based intra governmental securities as
      follows:
                                                                      Net
                                                                 unamortized
                                                                   premium            Net           Market
                                                    Cost          (discount)      investments       value
      One-day certificates                   $     316,167,000       NA             316,167,000     316,167,000
      Bills and notes                            2,324,106,000   (20,736,636)     2,303,369,364   2,303,864,277
                    Total                    $ 2,640,273,000     (20,736,636)     2,619,536,364   2,620,031,277


      The net unrealized gain on investments is $494,913 at September 30, 2006.




                                                       13                                           (Continued)
                       U.S. DEPARTMENT OF THE TREASURY
        BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2006



Leaking Underground Storage Tank Trust Fund
The investments at September 30, 2006, are non-marketable, market-based intra governmental securities as
follows:
                                                                Net
                                                           unamortized
                                                             premium              Net           Market
                                              Cost          (discount)        investments       value
One-day certificates                   $     145,849,000       NA               145,849,000     145,849,000
Bills and notes                            2,519,870,000     42,491,417       2,562,361,417   2,539,980,220
              Total                    $ 2,665,719,000       42,491,417       2,708,210,417   2,685,829,220


The net unrealized loss on investments is $22,381,197 at September 30, 2006.

Oil Spill Liability Trust Fund
The investments at September 30, 2006, are non-marketable, market-based intra governmental securities as
follows:

                                                                Net
                                                           unamortized
                                                             premium              Net           Market
                                              Cost          (discount)        investments       value
One-day certificates                   $     96,156,000        NA               96,156,000       96,156,000
Bills and notes                             497,010,000         523,515        497,533,515      490,001,176
              Total                    $    593,166,000         523,515        593,689,515      586,157,176


The net unrealized loss on investments is $7,532,339 at September 30, 2006.

Harbor Maintenance Trust Fund
The investments at September 30, 2006, are non-marketable, market-based intra governmental securities as
follows:
                                                                Net
                                                           unamortized
                                                             premium              Net           Market
                                              Cost          (discount)        investments       value
One-day certificates                   $     160,216,000       NA               160,216,000     160,216,000
Bills and notes                            3,003,296,000     37,083,957       3,040,379,957   3,012,384,290
              Total                    $ 3,163,512,000       37,083,957       3,200,595,957   3,172,600,290


                                                 14                                             (Continued)
                             U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                   Notes to the Schedules of Selected Trust Funds
                                                September 30, 2006



      The net unrealized loss on investments is $27,995,667 at September 30, 2006.
      Inland Waterways Trust Fund
      The investments at September 30, 2006, are non-marketable, market-based intra governmental securities as
      follows:
                                                                       Net
                                                                  unamortized
                                                                    premium             Net        Market
                                                      Cost         (discount)       investments    value
      One-day certificates                      $    34,689,000        NA             34,689,000    34,689,000
      Bills and notes                               226,209,000       1,391,723      227,600,723   225,981,012
                    Total                       $   260,898,000       1,391,723      262,289,723   260,670,012


      The net unrealized loss on investments is $1,619,711 at September 30, 2006.
      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The investments at September 30, 2006, are non-marketable, market-based intra governmental securities as
      follows:

                                                                       Net
                                                                  unamortized
                                                                    premium             Net        Market
                                                      Cost         (discount)       investments    value
      Bills and notes                           $    89,003,471       (327,062)       88,676,409    86,829,900


      The net unrealized loss on investments is $1,846,509 at September , 2006.

(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      Change in program agency equity, for the year ended September 30, 2006, is:
                             Balance, beginning of year                  $    17,482,938,795
                             Increase in balance                              16,044,711,150
                             Balance, end of year                        $    33,527,649,945




                                                          15                                       (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                        September 30, 2006



Federal Hospital Insurance Trust Fund
Change in the program agency equity, for the year ended September 30, 2006, is:

                    Balance, beginning of year                    $ 281,455,477,240
                    Increase in balance                              25,126,671,117
                    Balance, end of year                          $ 306,582,148,357


Highway Trust Fund
Change in program agency equity for the year ended September 30, 2006 is:

                    Balance, beginning of year                    $    10,819,587,472
                    Increase in balance                                 2,568,424,406
                    Balance, end of year                          $    13,388,011,878


The program agency equity available as of September 30, 2006 is $13,388,011,878. However, Congress
has authorized appropriations in excess of current available trust fund assets that amounts to $872,167,205
after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund
Change in program agency equity for the year ended September 30, 2006, is:
                    Balance, beginning of year                    $    10,825,298,117
                    Decrease in balance                               (2,212,301,305)
                    Balance, end of year                          $     8,612,996,812


Hazardous Substance Superfund Trust Fund
Change in program agency equity for the year ended September 30, 2006, is:
                    Balance, beginning of year                    $     2,304,405,202
                    Increase in balance                                   323,871,555
                    Balance, end of year                          $     2,628,276,757




                                                 16                                           (Continued)
                      U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2006



Leaking Underground Storage Tank Trust Fund
Change in program agency equity for the year ended September 30, 2006 is:
                    Balance, beginning of year                  $     2,526,631,092
                    Increase in balance                                 223,865,224
                    Balance, end of year                        $     2,750,496,316


Oil Spill Liability Trust Fund
Change in program agency equity for the year ended September 30, 2006, is:

                   Balance, beginning of year                    $      739,811,579
                   Decrease in balance                                (135,411,180)
                   Balance, end of year                          $         604,400,399


Harbor Maintenance Trust Fund
Change in program agency equity for the year ended September 30, 2006, is:
                    Balance, beginning of year                  $     2,782,936,350
                    Increase in balance                                 522,812,407
                    Balance, end of year                        $     3,305,748,757


Inland Waterways Trust Fund
Change in program agency equity for the year ended September 30, 2006, is:

                   Balance, beginning of year                    $      352,602,360
                   Decrease in balance                                 (84,930,634)
                   Balance, end of year                          $         267,671,726


South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
Change in program agency equity for the year ended September 30, 2006, is:

                   Balance, beginning of year                    $          76,105,695
                   Increase in balance                                      13,233,088
                   Balance, end of year                          $          89,338,783




                                                 17                                      (Continued)
                             U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2006



      The Omnibus Consolidated and Emergency Supplemental Appropriations Act dated October 21, 1998
      (Public Law 105-277, DIVISION C, Title VI, Section 603) established this trust fund in 1999. This Act
      states that the Secretary of the Treasury may not transfer or withdraw any amount deposited in the trust
      fund until the aggregate amount is equal to at least $108,000,000. As such, the program agency equity
      balance as of September 30, 2006 is not available to the program agency.

(4)   Other Income
      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The $10,000,000 of other income for the year ended September 30, 2006 represents the amounts deposited
      into the trust fund by the Secretary of the Treasury in accordance with the trust fund’s enabling legislation
      (Public Law 105-277, DIVISION C, Title VI, Section 603).

(5)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The IRS and OTA determine the amounts to
      be deposited in the trust funds. The program agencies determine the disposition of the trust fund balances.




                                                        18
